No. 19-599
IN THE
SUPREME COURT OF THE UNITED STATES
SAMUEL C. MOHORNE,
Petitioner,
v.
BEAL BANK, SSB, et al.
Respondents.
On Petition For Writ Of Certiorari
To The Eleventh Circuit Court ofAppeals
PETITION FOR REHEARING
SAMUEL C. MOHORNE
6965 NW 19th Court
Margate, FL 33063
(754) 235-5019
Email: divinelaw67@yahoo.com

1

TABLE OF CONTENTS
Table of Authorities

11

Petition for Rehearing

1

Factual and Procedural Background

2

Reasons for Granting the Petition....

4

Conclusion

:5

Certificate of Petitioner

6

11

TABLE OF AUTHORITIES

Cases

Page(s)

Holms v. Wells Fargo. Home Mortgage, 710 F.2d
1528 (Missouri Supreme, 2017)
5

1
PETITION FOR REHEARING
Petitioner respectfully and timely petition this court
for a rehearing of its January 13, 2020 order denying
a Writ of Certiorari. This case can seem rather
complex, but it is actually very simple. It has
involved theft and fraud by Beal Bank and the
Broward County Sheriff Office, Broward County
State Attorney Office, and the Office of the Attorney
General.
I am not an attorney, just a disabled veteran trying
to correct an injustice. No law degree is necessary to
see that a strong-armed robbery crime has taken
place without a gun. My house was stolen from me. I
spilt the vacate land from the house years before the
mortgage was obtain. Two different legal description
and two different folio numbers. Yes, they rightfully
foreclosed on the land. But then Broward County
Courts allowed them months later to return with
alias writ that granted them my home (homestead).
I tried to file bankruptcy yet, Beal Bank came in
and lied to Honorable Judge stating that the
property was one instead of two different properties.
Yet, several years later Beal Bank sold the
properties separately with two different folio
numbers and two different legal descriptions.

2
FACTUAL AND PROCEDURAL BACKGROUND
The Eleventh Circuit Court of Appeals opinion is
reported at Mohorne v. Beal Bank, et. al.
No. 18-14776 (11th Cir.2019). The 11th Circuit’s
denial of petitioner’s motion for reconsideration to
reopen and grant automatic stay.
Mohorne v. Beal Bank, et. al.
No. 17-13534 (11th Cir.2018) vacated and remanded
the case back to the District Court 02/12/2018 for
further proceedings
Petitioner legally separated the land from the house.
Original Folio# 8233-03-0322 changed to 8233-03032.4 on June 5,1996 new legal description

LAND DEPT. CHANGE FORM
Original Folio # 8233-03-0322
x Folio Number
8233-03-032.4
x New Legal
NAME & Address Change
Mohorne, Samuel C
1601 N.W. 17th CT
Pompano Beach FL. 33069-1608
LAND CALCULATIONS
Date

6/5/1996

3

75 x Unit Price
LEGAL DESCRIPTION - Change Line #
legal to: (see below)
FORDS MANOR 19-34B
LOT 44 LESS N 10 FOR ST &
LESS THE SOUTH 152.00
STATE OF FLORIDA
COUNTY OF BROWARD
Posted By: Supervisor
I hereby certify that the above is a true and
Correct copy of the following record from the
Office of the
Broward County Property Appraiser
Witness and hand and official seal in the
City of Ft. Lauderdale
This 2 day of December AD 2005

LAND DEPT. CHANGE FORM
Fill in changes only.
Original Folio # 8233-03-0322
Folio Number
8233-03-0322
New Legal

in

4

NAME & Address Change
Mohorne, Samuel C
1601 N.W. 17th CT
Pompano Beach FL. 33069-1608
LAND CALCULATIONS
x Unit
x Land
Date
Price
Factor
x Type
6/5/1996
.75
19000 S.F.
Petitioner commenced a complaint to The Eleventh
Circuit Court of Appeals opinion is reported at
Mohorne v. Beal Bank, et. al.
No. 18-14776 (11th Cir.2019). The 11th Circuit’s
denial of petitioner’s motion for reconsideration to
reopen and grant automatic stay.
Mohorne v. Beal Bank, et. al.
No. 17-13534 (11th Cir.2018) vacated and remanded
the case back to the District Court 02/12/2018 for
further proceedings
Still proceeding pro se, petitioner timely filed a
petition for a writ of certiorari in this Court. The
Court denied a writ of certiorari.
REASONS FOR GRANTING THE PETIION
In Florida, foreclosures are judicial, which means
the lender must file a lawsuit in state court. The
lender (Beal Bank) initiated the process by filing a
complaint with the court and having served to the
petitioner, along with a summons. The petitioner

5
was served for one property only and the bank took
the house and the land. The Petitioner signed a
mortgage and a promissory note that Beal Bank
could not provide the original copy of. Therefore,
they had no “standing “to foreclose on petitioner’s
home.
In, David and Crystal Holm v. Wells Fargo Home
Mortgage Inc. Wells Fargo had moved to foreclose on
both properties even though the bank had no proof
that it possessed the notes underlying the mortgage.
In this cases Wells Fargo would make more money
foreclosing on couple’s home.
Conclusion
For the foregoing reason, this Court should grant the
petition for rehearing and vacate the order denying
the writ of certiorari, and restore this case to its
merits docket
Respectfully submitted,
SAMUEL C. MOHORNE
6965 NW 19th Ct
Margate, FI 33063
754-235-5019

6

CERTIFICATE OF PETITIONER
I hereby certify that this Petition for Rehearing
is presented in good faith and not for delay and is
restricted to the grounds specified in Rule 44.2.

f
/■

9

